Supreme Court, U.S.
FILED

|Q - YU&\
NO.

MAY - 7 2020
OFFICE OF THE CLERK

IN THE
Supreme Court of the United States

GEORGE ANDREW BENAVIDES,
PETITIONER,
V.

UNITED STATES ATTORNEY GENERAL
WILLIAM BARR, et. al, RESPONDENTS.
On Petition For Writ of Certiorari
To The United States Court of Appeals For The Fifth
Circuit
PETITION FOR WRIT OF CERTIORARI
George Andrew Benavides, Pro se
1308 E. Common St, Suite 205
Mail Box 408
New Braunfels, Texas 78130
(210) 322-9328

RECEIVED
MAY 1 2 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

;! t :

i

QUESTION(S) PRESENTED
The Espionage Act of 1917 was intended to
prohibit interference with “Military” operations or
recruitment, to prevent insubordination in the
military, and to prevent the support of United States
enemies during wartime. In order to invade the
privacy or civil rights of an American citizen, a
federal judge must have probable cause to issue the
rights of a federal agency to spy, eavesdrop or
wiretap an American citizen. 18 U.S.C §119. The
Fourth Amendment of the United States
Constitution, prohibits the right of the people to be
secure against unreasonable searches and seizures.
The United States Constitution also protects an
American citizen from Torture or Treason. 18 U.S.C
§ 2340A, 18 U.S.C § 2381.
The questions presented is whether the United
States Navy/USN had legal consent to spy on me
while serving in the United States Marine
Corps/USMC during the Gulf War and why wasn’t
the spying terminated and removed when my career
ended in the military?
Did the lower courts neglect to hear this case based
on the preponderance of the evidence and beyond a
reasonable doubt that in fact a federal crime has
been committed and a civil tort is this aftermath?
When is my freedom going to be restored and the
torture going to stop? U.S Const. Amend 14

ii

PARTIES TO THE PROCEEDING
Petitioner
George Andrew Benavides
Pro se
7103 Galaxy Brook
San Antonio, Texas 78252
Gbenavidesl970@gmail.com
(210) 322-9328
Mail Box Emporium
1308 Common St
Suite 205 Mail Box 408
New Braunfels, Texas 78252

Respondents
United States President, Donald
Trump, 1600 Pennsylvania Ave,
N.W Washington, D.C 20500
United States Attorney General,
William Pelham, Barr, 950
Pennsylvania, D.C 20530
United States Attorney General,
John Bash, 601 NW Loop 410,
Suite 600, San Antonio, Texas
78216
Office of the Naval Inspector
General, Attn Navy Hotline,
1254 9th Street S.E, Washington,
D.C 20374-5006
United States Federal Bureau of
Investigations, 935
Pennsylvania Ave, N.W
Washington, D.C 20530
United States Department of
Justice, Office of Inspector
General, 950 Pennsylvania Ave,
N.W Room 4726, Washington,
D.C 20530
United States Department of
Veterans Affairs, 810 Vermont
Ave, N.W, Washington, D.C
20420
United States Department of
Defense, Office of inspector
General, 4800 Mark Center
Drive, Alexandria, V.A 223501500

iii

CONSTITUTIONAL AND STAUTORY
PROVISIONS INVOLVED
Geneva Convention Rule 7c UN Convention Against
Torture, Signed 18 April 1988, Rat 21 oct94
Hate Crime Prevention Act 2009
1584 Richmond California, Resolution LI, Support of
Space Preservation Act House Bill 4513 (2003)
Michigan House Bill 4514 (2003)
State of Massachusetts/Chapter 170 of the Act 2004
Maine Chapter 264 H.P. 868-L.D. 1271 (2005)
Hate Crime Prevention Act 2009
Richmond California, Resolution 1-1, Support of
Space Preservation Act.
State of Massachusetts/Chapter 170 of the Act 2004
Michigan Chapter 170 of the acts of 2004 Chapter
264 H.P. 868-L.D. 1271 (2005)

18 U.S.C 2381
28 U.S.C 994 note Sec. 280003
18 U.S.C 245 (b)(2)
18 U.S.C 241
18 U.S.C chp 113 - sec. 2340
18 U.S.C 2331
18 U.S.C 2333
18 U.S.C.A §2511
18 U.S.C.A 2516

iv

18 U.S.C.A 2518
10 CFR 1047.7
Marbury v. Madison, 5 U.S. 137 (1803)
Norton v. Shelby County, 118 U.S 425 (1886)
Miranda v. Arizona, 384 U.S 436, 491 (1966)
Union Pacific Railway Co. v. Botsford, 141 U.S 250
Conservator of Wedland 26 Cal.4th 519 (2001)
Schloendorff v. Society of New York Hospital, N.Y.
1914 105 N.E. 92, 93
In re M.S 10 Cal.4th 698 (1995)
Broadrick v. Oklahoma 413 U.S 601, 612 (1973)
United States v. Jones, 615 F.ed 544 (2012)
People v. Windham, 145 Cal.App.4th 881 (2006)
Sanders v. American Broadcasting Cos, Inc., 978
P.2d 67 (Cal. 1991)
Katz v. United States, 389 U.S 347 (1967)
United States v. Karo, 468 U.S 705 (1984)
Katz v. United States, 389 U.S 347 (1967)
Griswold v. Connecticut 381 U.S 479 (1965)
People v. Supeior Court (Walker) 143 Cal.App.4th
1183 (2006)
People v. Jenkins 22 Cal.4th 900 95 (2000)
Miranda v. Arizona, 384 U.S 436, 491 (1966)
Chambers v. Florida 309 U.S 227 (1940)

Mallory v. United States 354 U.S 449 (1957)
Mallory v. Hogan 378 U.S 1 (1964)
In re Oliver 333 U.S 257 (1948)
Klopfer v. Notrth Carolina 386 U.S. 213 (1967)
Payne v. Superior Court, 17 Cal. 3d 908 (1976)
Griswold v. Connecticut 381 U.S 479 (1965)
United Public Workers v. Mitchell 330 U.S 75 (1947)
Scott v. Sandford 60 U.S. 393 (1856)
Slaughter- House Case 83 U.S 16 Wall. 36 36 (1872)
Skinner v. Oklahoma, ex. Rel Williamson, 316 U.S.
535 (1942)
Eisentsadt v. Baird 405 U.S 438 (1972)
People v. Rhodes 126 Cal.App,4th 1374 (2005)
Brown v. Board 347 U.S. 483 (1954)
Lochner v. New York 198 U.S. 45 (1905)
Lawrence v. Texas (02-102) 539 U.S 558 (2003)
Roe v. Wade 410 U.S 113 (1973)
United States v. Alvarez 567 U.S (2012)
Title 7 Sec 571.020 Tex. Health & Safety Code
Labella v. FBI, United States District Court, Eastern
District of New York C.I.A v. Sims 471 U.S. 159
•

(1985)

vi
TABLE OF CONTENTS
1
QUESTIONS PRESENTED....................
n
PARTIES TO THE PROCEEDING.......
CONSTITUTIONAL AND STAUTORY
in
PROVISIONS INVOLVED.....................
vi
TABLE OF AUTHRORITIES.................
1
OPINIONS BELOW.................................
JURISDICTION........................................
1
1
PROVISION INVOLVED.........................
2
STATEMENT OF THE CASE.................
4
A. Statutory Background..................
6
B. Factual Background.....................
7
C. Proceedings Below................ ........
REASONS FOR GRANTING THE PETITION ... 19
I.
Did the USN violate the Espionage Act of 1917
in an illegal contractual agreement?............ 19
II.
Why didn’t the USN end the spying on me
when he I was discharged from the
military?.............................................................. 19
III.
Did the USN violate my Fourth Amendment
rights?.................................................................. 20
Was there probable cause or a federal judge’s
IV.
order issued to the USN to spy, eavesdrop or
wiretap me?........................................................ 22
V.
Why am I being stalked and tortured by the
Respondents with satellite weapons, electronic
22
harassment or exotic Space weapons?
VI.
Why did the lower courts fail to stop a federal
22
crime and a civil tort from continuing?
VII.
Does a federal judge recuse himself for being
bias or prejudice and not stopping a federal
22
crime? ...
26
CONCLUSION

vii

TABLE OF CONTENTS-continued

APPENDICES

Page

Appendix A: U.S Court of Appeals For The Fifth
Circuit, Judgement,
March 17, 2020
1
Appendix B: U.S Court of Appeals For The Fifth
Circuit, Appellants motion to amend
Caption is denied,
February 12, 2020
2
Appendix C: U.S District Court For Western District
Of Texas, Order Adopting Report and
Recommendation and Dismissing Case
With Prejudice,
December 9, 2019
3
Appendix D: U.S District Court For Western District
Of Texas, Order Returning Case to
District Court,
November 22, 2019
9
Appendix E: U.S District Court For Western District
of Texas, Report and Recommendation
of United States Magistrate Judge,
November 21, 2019
10

viii

TABLE OF CONTENTS-continued

Appendix F: U.S District Court For Western District
Of Texas, Report and Recommendation
Of United States Magistrate Judge,
October 2, 2019
16
Appendix G: U.S District Court For Western District
Of Texas, Show Cause Order, U.S
Magistrate Judge,
October 2, 2019
22
Appendix H: Appendix H: U.S District Court For
Western District Of Texas, Referral To
Magistrate Judge,
September 16, 2019
26
Appendix I: U.S Court of Appeals For The Fifth
Circuit, Petition for rehearing denied
April 7, 2020
29

ix

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Johnson v. United States
333 US 46 (1948).

3

Ybarrs v. Spangard
25 Cal.2d 486

3

Eaton v. Eaton
575 A2d 858 (NJ 1990)

3

Kerber v. Sarles
151 A.D.2d 1031 (N.Y. App. Div. 1989)

3

Katz v. United States
389 U.S. 347 (1967)

3

Marbury v. Madison
5 U.S. 137 (1803)

3,20

Miranda v. Arizona
384 U.S 436, 491 (1966)

3,20

Union Pacific Railway Co. v. Botsford
141 U.S 250 (1891)....................

2

X

TABLE OF AUTHORITIES-continued
Schloendorff v. Society of New York Hospital
141 U.S 250 (1891)............................

19

United States v. Jones
615 F.ed 544 (2012)

19

Sanders v. American Broadcasting Cos, Inc.,
978 P.2d 67 (Cal.1991)...........................

2

Griswold v. Connecticut
381 U.S 347 (1967)

3

Chambers v. Florida
309 U.S 227 (1940)

3

xi

TABLE OF AUTHORITIES-continued
Mallory v. United States
354 U.S 449 (1957)

3

In re Oliver
333 U.S 257 (1948)

20

Klopfer v. North Carolina
386 U.S 479 ...............

20

Griswold v. Connecticut
381 U.S 479 (1965)

3

United Public Workers v. Mitchell
330 U.S 75 (1947)..................

5

Scott v. Sandford
60 U.S 393 (1856)

3

Slaughter-House Case
83 U.S 16 Wall 36 36 (1872)

3

Skinner v. Oklahoma, ex Rel Williamson
316 U.S 535 (1942)..........................

5

xii

TABLE OF AUTHORITIES-continued
Eisentsadt v. Baird
405 U.S 438 (1972)

5

Brown v. Board
347 U.S 483 (1954)

5

CONSTITUTIONAL PROVISIONS
U.S Const, amend I

10

U.S Const, amend IV

2

U.S Const, amend V

3

U.S Const, amend IX

5

U.S Const, amend XIII

3

U.S Const, amend XIV

5, 15

STATUTES
18 U.S.C. § 2511

3, 4,14

18 U.S.C. § 2516

3,4,14

18 U.S.C. § 2518

3,4

10 CFR 1047.7

4

18 U.S.C. §2333

5

18 U.S.C. §2331

5

xiii

18 U.S.C. § 245(b)(2)

13

18 U.S.C. §241

5

18 U.S.C. § 242

5

18 U.S.C. §2381

4,6

18 U.S.C. §2510

3,4,14

18 U.S.C. § 2340(A)

6

28 U.S.C. § 1343(a)

5,14

The Espionage Act of 1917

3,4,19

42 U.S.C. § 1983

5,14

18 U.S.C. § 201

18

25 CFR § 11.406

25

18 U.S.C. § 2155

3

18 U.S.C. §2151

3

49 CFR § 801.56

2

25 CFR § 11.404

3

25 CFR § 11.400

2

OTHER AUTHORITIES
Federal Rules of Discovery (FRCP 26-37)

3

xiv

U.S District Court For Western District
Record on Appeal/ROA.......7, 10, 12,13,14,15,17,23
Ohio United States Congressman, Dennis Kucinich
(D), 107th Congress, 1st Session, H.R. 2977, Space
Preservation Act of 2001
9
Doctrine Res Ipsa Loquitur

3

Richmond California, Resolution 1-1 Support of.... 9
Space Resolution Act

9

State of Michigan/House Bill 4513 (2003)

9

State of Michigan/House Bill 4514 (2003)

9

State of Massachusetts/Chapter 170 of the
Act 2004............................................................

9

State of Maine/Chapter 264 H.P. 868-L.D. 1271
(2005)..........................................................................

9

State of Missouri/House Bill 550

9

OPINIONS BELOW
The opinion of the United States court of appeals
appears at Appendix: A

JURISDICTION
The United States Supreme Court has jurisdiction
over this case because the federal laws in question
are Title 42 U.S.C. 1983 and Title 28 U.S.C. 1343(a).

PROVISIONS INVOLVED
The statutory and constitutional provisions involved
include The Espionage Act of 1917, Deprivation of
Civil Rights- 42 U.S.C. § 1983, Civil Rights- 28
U.S.C. § 1343.

2

STATEMENT
I’ve been falsely imprisoned, a victim of
spying, torture and treason for twenty-six years. I
am isolated by a spying device used to transmit or
broadcast my thoughts and privacy to enemy, society
or the government without a federal judge’s
authority. My civil rights have been violated and
USN did not have my consent or proper federal court
order to illegally spy and torture me. See Sanders v.
American Broadcasting Cos, Inc., 978 P.2d 67 (Cal.
1991), Union Pacific Railway Co. v. Botsford, 141 U.S
250 (1891). 49 CFR § 801.56.
In 1993 when I enlisted at the Military
Entrance Processing Station in San Antonio, Texas I
had a background investigation and I was accepted
to enlist in the United States Marine Corps during
the Gulf War. I never imagined that I would be
segregated from all other marines who enlisted with
me during my career in the Marines. In 1994 while
stationed at Marine Corps Recruit Depot (MCRD)
located at 4300 Midway Ave, San Diego, California
92140. The USN and its dental staff were supposed
to only clean and repair my teeth, not illegally
implant a spying device inside of me used to
broadcast or transmit the privacy of my life or my
duties as a United States Marine Infantry
man.123After the USN inserted the spying device
inside of me, I continued to proceed to train for the
Gulf War, exploiting or transmitting the secrecy and
1 25 CFR § 11.400- Assault
2 U.S Const, amend 4- Unreasonable search and seizure
3 18 U.S.C. § 2511, 18 U.S.C. § 2518, 18 U.S.C. § 2516, 18
U.S.C. §2510

3

privacy of the Marine Corps Infantries Battalions to
the enemy, society and the government.45 See Scott
v. Sandford 60 U.S. 393 (1856), Slaughter- House
Case 83 U.S 16 Wall. 36 36 (1872). 25 CFR § 11.404.
The problem here is that when my career ended in
the USMC, the USN had a legal duty to remove or
take back all federal government property from me
including the spying device they placed inside of me.6
See Katz v. United States, 389 U.S 347 (1967),
Griswold v. Connecticut 381 U.S 479 (1965).
The lower courts neglected to investigate this
case by utilizing the Res ipsa loquitur doctrine which
means “The Thing Speaks For Itself’, in which was
citied in my case.7 See Marbury v. Madison, 5 U.S.
137 (1803), Miranda v. Arizona, 384 U.S 436, 491
(1966), Chambers v. Florida 309 U.S 227 (1940),
Mallory v. United States 354 U.S 449 (1957). What
we do know is that Respondents/Defendants were
negligent and the assumption is made even without
specific evidence of negligence, as this tort or
damages would not have occurred in the absence of
negligence.8 In order to acquire the evidence, the
lower courts should have allowed for discovery under
the Federal Rules of discovery. (FRCP 26-37).9 The
negligence by the Respondents is allowing the
4 The Espionage Act of 1917
6 U.S Const, amend 13- Involuntary servitude
6 18 U.S.C § 2151, 2155
7 U.S Const, amend 5- Due process of the law
8 Johnson v. United States, 333 U.S 46 (1948), Ybarrs v.
Spangard, 25 Cal.2d 486, Eaton v. Eaton, 575 A2d 858 (NJ
1990), Kerber v. Sarles , 151 A.D.2d 1031 (N.Y. App. Div. 1989)
9 Federal Rules of Discovery (FRCP 26-37)

4

enemy, society or government to understand what I
am thinking or doing on a daily basis as a U.S
Marine, thus creating the federal crime of illegal
espionage, eavesdropping, or wiretapping. “Let the
people speak the problem” if you were to ask the
people out in public if they can understand what I
am thinking or doing in my own privacy and they
give you an answer, it’s a violation of my civil rights.
The lower courts also neglected to judge the crimes
being committed against me and other Americans by
using Satellite weapons and electronic harassment.
Using space weapons by your own government and
subcontractors against myself and other American is
called treason and torture. 1011
A. STATUTORY BACKGROUND
1. The Espionage Act of 1917 prohibits
interference with military operations or
recruitment, to prevent insubordination in
the military, and to prevent the support of
United States enemies during wartime. In
1994 the USN implanted me with a spying
device while serving during the Gulf War.
Espionage Act of 1917 does not have a
statute of limitations in a crime involving
war.
2. Illegal eavesdropping and wiretapping on
me must be ordered by a United States
Federal Judge which makes the Navy
implant or spying illegal under the United
States Constitution, 18 U.S.C. § 2510, 18
10 18 U.S.C. § 2381-Treason, 18 U.S.C. § 2340(A)-Torture
11 10 CFR 1047.7 - Use of Deadly Force

5

U.S.C. § 2516, 18 U.S.C. §2518, 18 U.S.C. §
2511.
3. The fourth Amendment of the United
States Constitution prohibits the
unreasonable search and seizure of any
person. Since I am transmitting or
broadcasting the privacy of my life to the
enemy, society and the government this
breached my Fourth Amendment rights
caused by the USN illegal spying.
4. After being denied legal assistance for
violation of my civil rights, spying and
torture by federal judges, federal officials,
United States Congressman, United States
Senators and the Federal Bureau of
Investigations.1213 See Skinner v.
Oklahoma, ex. Rel Williamson, 316 U.S.
535 (1942), Eisentsadt v. Baird 405 U.S 438
(1972), People v. Rhodes 126 Cal.App.4th
1374 (2005), Brown v. Board 347 U.S. 483
(1954), A time line was created to help this
court understand who I made contact with
to seek legal assistance. On April 29, 2019,
I filed a federal law suit for Deprivation of
my civil rights and violation of my civil
rights under the United States constitution
42 U.S.C. § 1983, 28 U.S.C. § 1343(a).1* See
Griswold v. Connecticut 381 U.S 479.

1218 U.S.C. § 242- Deprivation of civil rights, 18 U.S.C. § 241Conspiracy against civil rights
13 U.S Const, amend 14 - equal protection of laws
14 U.S Const, amend 9- unenumerated rights

6

(1965), United Public Workers v. Mitchell
330 U.S 75 (1947). 18 U.S.C 2333, 2331.
5. As I begin investigating my case, the
respondents especially the FBI began to
stalk, track and torture me with satellite
weapons and electronic harassment taking
advantage of the United States Navy
implant, spying and tracking device. This is
a violation of the United States
Constitution 18 U.S.C. § 2381, 18 U.S.C. §
2340(A)
B. FACTUAL BACKGROUND
1. In 1994 the USN illegally eavesdrop and
wiretapped me during the Gulf War which
is considered espionage or spying.
2. In 1998 when I was honorably discharged
from USMC, the USN failed to stop the
illegal spying and torturing.
3. On May 12, 2000 I filed a lawsuit in the
United States District For Western District
of Texas San Antonio Division, Judge
Edward C. Prado presiding and Law
Clerk, Henry Bemporad assisting. Judge
Prado ignore the federal crime, espionage
and threw the case out of court.
4. After being denied legal assistance by
federal officials for assisting me in the .
investigations of the violation of my civil
rights and liberties. On April 29, 2019 I
filed a laws suit in the United States
District For Western District of Texas San

7

Antonio Division to restitute this illegal
spying and torture.
5. Because this case is not repetitive, and
default judgement was filed in compliance
with United States Federal Rule of
procedure and because Magistrate Federal
Judge, Henry Bemporad was Bias and
Prejudice. This case is now filed with the
United States Supreme Court because the
lower courts are neglecting to investigate
the tort and the crimes committed against
me by the Respondents. They failed to
judge the behaviors of the federal
government agencies to maintain law and
order.
C. PROCEEDINGS BELOW
In the twenty-six years I have been falsely
imprisoned, spied on, implanted, tracked, and
tortured by satellite weapons and electronic
harassment. I have gathered evidence that in
fact the United States Federal Government
has been attacking me and other Americans
with satellite weapons and electronic
harassment. See ROA.302 Plaintiffs Motions
To Submit Documentary evidence. After
gathering evidence from several organizations
especially Targeted Justice, its evident that I
am not the only American stalked, harassed
and tortured. This seems like a “Pandemic of
Domestic Terrorism” attacking Americans
world-wide. See www.targfetediustice.com
Since 1994 I have been a targeted
individual from San Antonio, Texas. I met up

8

with Derrick Robinson former United States
Navy Veteran, who opened up an organization
called Freedom From Covert Harassment and
Surveillance found at www.freedomchs.com or
www.freedomfchs.startlogic.com. Derrick
Robinson was harassed by the Federal
government for opening up this organization
in 2008. So, he was forced to shut down. This
did not stop Mr. Robinson. He proceeded to
hire an attorney an opened up another
organization called People Against Covert
Torture & Surveillance, International. See
www.nactsntl.org. Mr. Robinson informed me
that I was not going insane and that the
unexplained pain was in fact the act of
satellite weapons and electronic harassment
operated by the U.S Federal Government and
subcontractors. He then proceeded to tell me
that he knew of a physician by the name of Dr.
John Hall, who was from my home town San
Antonio, Texas who had written a book called,
A New Breed Satellite Terrorism in America.
After reading the book and investigating this.
I came across a whistleblower who worked for
the United States Central Intelligence Agency,
Dr. Robert Duncan. Dr. Duncan wrote books in
regards to satellite weapons and electronic
harassment. The books are called: How to
Tame a Demon: Short practical guide to
organized intimidation stalking, electronic
torture, found on Amazon. His other book is
called: Project: Soul Catcher: Secrets of Cyber
and Cybernetic Warfare Revealed. Dr. Duncan

9

was also interviewed on YouTube Title: Jesse
Ventura interview with Dr Robert Duncan,
https://voutu.be/gy28fgSr3Ms, With all this
evidence I was able to inform federal officials
and as of this date they have not returned my
question as to why I am targeted and tortured.
On April 25, 2019 Targeted Justice Inc, filed
Mandamus Petition with the Honorable Ryan
Patrick, United States Attorney, Southern
District of Texas, United States Attorney’s
Office, 1000 Louisiana, Ste 2300, Houston,
Texas 77002. See www.targetediustice.com.
Legal Action tab.
If Targeted Justice Inc and other
Americans have been denied the right to
present a case in trial? When are Americans
going to seek justice for being implanted,
tracked, stalked and tortured? If we don’t
investigate this now, when is this new
invisible crime going to be investigated? We
know that Americans are going to be tortured
using space weapons, but we the people were
denied to stop the crimes committed against
humanity. 15 See other states who have
adopted laws to protect against space weapons
and electronic harassment. See Page xi other
authorities.

15 Ohio United States Congressman, Dennis Kucinich, (D),
107th Congress, 1st Session, H.R. 2977, Space Preservation Act
of 2001.

10

On May 12, 2000 I attempted to present my
complaint in the United States District Court For
The Western District of Texas, United States Federal
Judge, Edward C. Prado threw my case out without
allowing evidence to be discovered or argument to be
presented.16 17
Mentally frustrated and deprived of my
constitutional rights, I continued to seek justice. I
presented my argument to federal officials as
documented in my book: The 1994 Hacked Mind.18 I
was even presenting evidence to local media to help
them understand what I was going through and
other Americans. I contacted Fox news and friends,
CNN, MSNBC, CBS, and other media networks by
either email or twitter posting the latest information
of people or organizations involved in the
investigations of satellite weapons and electronic
harassment. The time line listed below will help you
understand that I was seeking legal assistance since
the year two thousand (2000) but was denied legal
assistance by federal officials and organizations. For
some reason United States Congressman and United
States Senators were deprive from in investigating
my civil rights case. See 18 U.S.C 241-242.
PETITONERS TIME LINE IN ATTEMPTING
TO SEEK LEGAL ASSISTANCE

16 See ROA.127, May 12, 2000-Benavides v. DVA and United
States Navy, SA00CA0496EP, U.S District Court for Western
District of Texas, San Antonio Division
17 U.S Const, amend 1- Right to Petition the government
18 See ROA.266, Plaintiffs Motion to Submit Documentary
Evidence, exhibit #1 Book, The 1994 Hacked Mind

11

• May 12, 2000 - Lawsuit filed against the
United States Navy and United States
Department of Veterans Affairs, See ROA.127
• April 13, 2005 - Legal Assistance requested
from American Civil Liberties Union, See
Book: 1994 Hacked Mind, Page 105
• June 14, 2005 - Legal Assistance requested
from American Civil Liberties Union
Foundation, See Book: 1994 Hacked Mind,
Page 109
• June 29, 2005 — Legal Assistance requested
from LULAC/ League of United Latin
Americans. See,Book: 1994 Hacked Mind,
Page 112
• January 31, 2006 - Legal Assistance requested
from United States Senator, John Cornyn, See
Book: 1994 Hacked Mind, Page 131-154
• June 19, 2006 - Congressional Inquiry
requested by United States Congressman
Charles A. Gonzales. See Book: 1994 Hacked
Mind, Page 115
• March 7, 2007 — Letter to United States
Congressman Charles A. Gonzales, that the
Petitioner met with FBI agent, Gary Simmons
and he was denied assistance. See Book: 1994
Hacked Mind, Page 118
• March 19, 2007 - Letter to the United States
Navy Judge Advocate asking to investigate,
See Book: 1994 Hacked Mind, Page 155.
• November 7, 2009 - Legal assistance
requested from United States Senator, Kay
Bailey Hutchison, See Book: 1994 Hacked
Mind, Pages 120-130.

12

•

•

•

•

•

•
•

•

•

•

November 21, 2007 - Legal Assistance
requested from Texas State Senator, Judith,
Zaffirini, See Book: 1994 Hacked Mind, Page
157
April 2, 2008 - Memo to United States
President, George W. Bush asking to
investigate. See ROA.154-161
July 29, 2008 — Letter to President, George W.
Bush asking him to investigate again. See
Book: 1994 Hacked Mind, Pages 196-201
October 2, 2009 - Rebuttal to United States
Congressman, Charles A. Gonzales from the
United States denying the navy experiment.
See Book: 1994 Hacked Mind, Page 119
April 3, 2011 - Letter to United States
President, Barack Obama asking him to
investigate, See Book: 1994 Hacked Mind,
Page 202-210
April 8, 2012- Letter to Human Rights Watch
requesting legal assistance, See ROA.193-195.
January 27, 2013 - Letter to the United States
Department of Justice, Attention Eric Holder,
See Book: 1994 Hacked Mind, Page, 273 and
ROA. 174
January 27, 2013 - Letter to the United State
Federal Bureau of Investigations asking them
to investigate, See Book: 1994 Hacked Mind,
page 274 and ROA.215.
May 13, 2015 - Complaint filed with United
States Intelligence Committee, Diane
Feinstein, See ROA.187-192
August 14, 2014 — Complaint filed with the
San Antonio Police Department of being

13

•

•

•
•

•

•

•

targeted and tortured, See Book: 1994 Hacked
Mind, Page 219
September 8, 2015- San Antonio Archdiocese,
Archbishop Gustavo-Siller Garcia was
informed of attacks on Americans with
satellite weapons. See Book: 1994 Hacked
Mind, Page 276
January 18, 2015 - Complaint filed with the
San Antonio Police Department of being
targeted and tortured, See Book: 1994 Hacked
Mind, Page 218
April 22, 2015 - Complaint filed with the office
of Inspector General, See ROA.213-214
May 27, 2015 - City of San Antonio was asked
to investigate targeting and torturing of San
Antonio residents.
July 7, 2015 - U.S Congressman Will Hurd
receives letter from the United States Navy
denying the navy spying. See Book: 1994
Hacked Mind, Page 189-190
May 21, 2016 - Falsely Imprisoned in a
mental Institution for arguing the two federal
officials about implanted, tracked, stalked and
tortured by satellite weapons and electronic
harassment. See Book: 1994 Hacked Mind,
Page 233
Since 1994 to this present time the DVA
continue to wrongfully diagnose me as mental
disorder for complaining about being
implanted, spied on and tortured by satellite
weapons and electronic harassment and

14

declared unable to work because being stalked
and tortured. 19
On April 29, 2019 I paid the filing fee and filed a
lawsuit in the United States Western District for the
State of Texas, San Antonio Division against the
Respondents.
DISTRICT COURT ERRORS
In the Petition filed On April 29, 2019 the
charges presented were Deprivation of civil rights,
42 U.S.C 1983 and 28U.S.C 1343(a). The
Respondents crimes and personal injuries
committed towards me is illegal eavesdropping and
wiretapping, illegal spying or Espionage. See 18
U.S.C $ 2511.18 U.S.C $ 2510. 18 U.S.C S 2516. and
18 U.S.C § 794, Espionage Act of 1917.
• On April 29, 2019 the Petitioner files petition
against Respondents, See ROA.8
• On September 12, 2019 the Petitioner files
Default Judgement against the Defendants.
See ROA.83
• Instead of rendering the Default Judgement,
the Senior United States District Judge,
David Alan Ezra refers the case to United
States Magistrate Judge, Henry Bemporad.
See ROA.95
a) Why didn’t the District Court order the
default judgement in favor of the
Plaintiff since the Defendants failed to
appear or answer the petition?
• On October 2, 2019 - USMJ, Bemporad
orders show for cause. See ROA.98-101
a) USMJ indicates the Petitioner filed a
repetitive case.

19 18 U.S.C. 245(b)(2)

15

b) USMJ calls the case frivolous case and
outside of statute of limitations.
c) USMJ orders the Plaintiff to file an
amended petition.
d) USMJ orders the Plaintiff to Show
Cause.
e) Question (a) How is the Plaintiff case
repetitive if the parties and laws are
not the same in either case? See ROA.8,
ROA. 140 and ROA. 127-129
f) Question (b) How is the case frivolous if
the case has not yet been presented to a
jury or discovery has not been
rendered? Denied Due Process, U.S
Const, amend 14.
g) Question (b) How is the Petitioners
case outside of statute of limitations
when the crime (Espionage) and
personal injuries has not been
restituted by a federal judge and jury?
h) On October 11, 2019 Plaintiff amended
the petition. See ROA. 140
i) On October 11, 2019 Plaintiff files
Response to USMJ, Bemporad Order to
Show Cause. See ROA. 118
• On October 2, 2019- USMJ, Bemporad orders
Report and Recommendation. See ROA. 102107
a) SDFJ, Ezra failed to render Default
judgement after the Defendants failed
to answer the petition under the
Federal Civil Rules 55(a).
b) How did the Petitioner utilize Improper
service when he utilized the United
States Postal Service to serve the
Defendants?

16

c) USMJ, Bemporad orders Objections to
Report and Recommendations and
Plaintiff responds. See ROA. 120
• On October 11, 2019 the Plaintiff filed an
amended petition and still no answer by the
Defendants.
a) On November 6, 2019 the Plaintiffs
serves all parties with a default
judgement to insure they each had a
copy of the Default Judgement and
would give them a chance to appear in
court. See ROA.270 - 301
b) Why did the USMJ-Bemporad fail to
render the default judgement again, in
favor of the plaintiff, instead judge files
Report and Recommendation to rescue
the Defendants?
• On November 22, 2019 the USMJ, Bemporad
fails to render Default Judgement in favor of
the Plaintiff, but instead filed Order
Returning Case to District Court. Why wasn’t
the Default Judgement granted?
• On December 9, 2019, SUSDJ, Ezra Dismiss
case with prejudice.
a) Why didn’t the judge render the
Default Judgement after the Plaintiff
complied with United States Federal
Rules of Civil Procedure 55(a) and
15(a)(3).

RECUSAL OF FEDERAL MAGISTRATE
JUDGE REQUESTED
On May 12, 2000 the Petitioner file a lawsuit in the
United States District Court For the Western
District of Texas San Antonio Division. The Federal

17

Judge Presiding was Edward C. Prado. Also, at the
time Judge Prado was in office, Judge Henry
Bemporad was a law clerk at the time working for
Federal Judge Edward C. Prado who threw my case
out of court.
• On December 3, 2019 the Petitioner filed an
Affidavit of Bias or Prejudice because Federal
Judge, Henry Bemporad was familiar with
the Petitioner case filed on May 12, 2000 and
declared the Petitioners case filed on April 29,
2019 and amended petition on October 11,
2019 as a repetitive case. See ROA.376,
ROA.8 and ROA.140
• How can the USMJ, Bemporad call this case
repetitive if the case in its contents does not
contain the same parties as in the lawsuit
filed on May 12, 2000 and does not contain
the same laws? ROA.376, ROA.8 and
ROA.140
• Should this judge have recused him from this
case by SUSDJ, Ezra or District court?20
UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT ERRORS
On March 17 2020, circuit judges, DAVIS,
SMITH and HIGGINSON render a judgement. It is
ordered and adjudge that the judgement of the
District Court is affirmed.
• How is it that a court can take side of a lower
court when the Petitioners life is “obviously’
violated?

20 28 U.S.C § 455 - Disqualification of justice, judge, or
magistrate judge

18

• How can a lower court take side of a lower
court when in fact the case is not Repetitive
and a crime (espionage) and personal injury
still exist?
• How can this court avoid the fact that the
Petitioner has been deprived of his civil rights?
• How can this court avoid the fact that the
Petitioner has been violated of his Fourth
Amendment Rights?
Do you think its constitutionally correct to
detain an American citizen or a veteran against his
will or psychological mind, exploiting the privacy of
my life to society or to the government in which they
should have no concern of what I am thinking or
doing? Do you think its ok to use satellite weapons to
attack and torture me and other Americans when we
are defenseless? Do you think its ok to bind a
contract with a member of family and the military to
illegal spy on me while serving in the USMC during
a time of war? 21Do you think it is legally right to
detour a crime or civil tort to save the stock market
and investments into a crime that is attacking me
and the American people? Do you think its ok for the
Respondents to say will its ok to do this to me, I am
being compensated at One Hundred percent (%100)
by the United States Department of Veterans
Affairs? To hell with the United States Constitution
and the people who died to preserve the rights and
freedom of the American people. We don’t need to
respect the privacy of the Petitioner or Americans,
We, don’t need to respect the Fourth Amendment
2118 U.S.C § 201 - Bribery of public officials and witnesses

19

rights of the Petitioner or Americans. Let’s just
wrongfully diagnose the Petitioner and compensate
me at One Hundred Percent to keep this crime quiet.
Do you think this is ok? So, do you see what the
lowers courts are missing? They are missing the
right to put this evidence and questions in a court of
law so that way the federal government and federal
courts can police the new era of technology and new
era of crime: “SATELLITE WEAPONS AND
ELECTRONIC HARASSMENT”. If this court doesn’t
do it now, who will suffer later on?
REASONS FOR GRANTING THE PETITION
I. The question presented to this court, did the
USN violate the Espionage Act of 1917 by
spying on me while serving in the United
States Marine Corps during the gulf war? See
United States v. Jones, 615 F.ed 544 (2012),
Schloendorff v. Society of New York Hospital,
N.Y. 1914 105 N.E. 92, 93
a) Did the Petitioner serve in the armed
forces during the Gulf War? The answer
is yes, I enlisted in the USMC from
1993 until 1998 when I was honorably
discharged.
b) Why did the USN spy on me during the
Gulf War?
II. Why didn’t the USN stop spying on me, after
my career ended in the military?
a) Was it because I continued to be an
employee of the federal government
after my career ended?
b) Was it because I was given “Sovereign
Immunity”?

20

c) Was it because I was supposed to be a
“Secret agent”? You see the lower courts
did not let the me discover these
questions in a court of law, they just
simply dismiss the case, ignoring the
14th Amendment of the United States
Constitution by defending the country
they swore to protect instead of
preserving my rights and the rights of
other Americans under the United
States Constitution knowing there is a
federal crime pending. Even if the USN
had abused the United States
Constitution by spying on me, shouldn’t
they have ceased the spying on me
when I was honorably discharged from
the military? The problem here is that
we will never know what the intention
of the spying device was for or what I
was supposed to do with spying device
after my military career ended.
III. Because the USN is spying on me, and none of
the federal officials fail to stop this crime. See
Marbury v. Madison, 5 U.S. 137 (1803), Norton
v. Shelby County, 118 U.S 425 (1886),
Miranda v. Arizona, 384 U.S 436, 491 (1966).
a) Would it be legal if any information obtains
from the USN spying device used on me from
1994 until this present date without a federal
court order, without probable cause or without
his consent, be consider fruit from the
Poisonous tree or a violation of my Fourth
Amendment Rights? See Klopferv. Notrth

21

Carolina 386 U.S. 213 (1967), In re Oliver 333
U.S 257 (1948)
a) “Fruit of the poisonous tree” doctrine
is an offspring of the Exclusionary
Rule. The Exclusionary rule
mandates that the evidence obtained
from an illegal arrest, unreasonable
search, or coercive interrogation
must be excluded from trial. Because
the USN illegally spied on me from
1994 until this present date, does
this give me sovereign immunity?
We have to understand that the
USN had an opportunity to cease the
status of Sovereign Immunity, but
for they failed to remove the spying
device from me when I checked out
of the military.
b) Am I exempt from civil or
criminal actions since leaving the
military until this present time?
c) Because the Navy continues to
spy on the me, broadcasting my
thoughts and my life to society
and to the government in which
they should have no concern, does
this violate my Fourth
Amendment Rights- Search and
seize?
d) Once again, we will never know
the answer to these questions
unless the courts allow for
testimony and discovery from

22

people who participated in this
federal crime of Espionage and
deprivation of civil rights.
IV.
Was there probable cause or a federal court
order to spy on me while serving in the USMC
during the gulf war?
a. If there was probable cause to spy on me.
Then why did they let me enlist in the
United States Marine Corps in 1993?
b. Was there a contractual agreement
between parties to spy on me or use me as
an experiment?
c. What was the reason why the USN spied
on me?
V.
Why am I being stalked and tortured everyday
by the Respondents with satellite weapons,
electronic harassment, or space exotic
weapons?
VI.
Does a federal judge recuse himself for being
bias or prejudice and not stopping a federal
crime? Impeachment of Federal Judges,
Article III, Section I.
a. On May 12, 2000, didn’t the United States
Federal Judge, Edward C. Prado have a legal
duty to hear the case and stop the crime of
illegal Espionage and deprivation of civil
rights?
1) Question why didn’t the United States
Federal Judge, Edward C. Prado neglect to
stop a federal crime of Espionage in 2000.
Instead he allowed me to be wrongfully
diagnosed and compensated by DVA to
keep a crime quiet?

23

2) Can Federal Judge, Edward C. Prado be
impeached for neglecting to stop a federal
crime when it was presented to him on May
12, 2000?
When I went to my appointed United States
Congressman and United States Senators to present
my case that I have been violated of my civil Rights,
didn’t they have a legal duty to investigate and Stop
the problem? See ROA.166- Congressional Inquiry,
U.S Congressman Gonzalez, ROA.210 Congressional Inquiry, Ex-Central Intelligence
Agent, U.S. Congressman, Will Hurd, ROA.187-U.S
Senator, Diane Feinstein, Book: 1994 Hacked Mind,
Page 154. Some of the questions I would like this
court to answer:
1. What is the procedure of a United States
Congressman and United States Senator,
especially and Ex- Central Intelligent Agency
officer who was brought to his concern that my
civil rights have been violated by illegal
eavesdropping and wiretapping and torture?
2. Is it against the law for any federal agency to
interfere in the civil rights investigations by a
United States Congressman or United States
Senator?
3. As the FBI don’t you have a legal duty as a
Federal Law Enforcement agency
to investigate civil rights violation or illegal
spying or Espionage and torture.
4. On March 6, 2007 I walked into the FBI Office
at 615 East Houston St, San Antonio, Texas
78205 and spoked with FBI, Agent Gary

24

5.

6.
7.

8.

9.

Simmons who stated he would not investigate
my case. Why didn’t he investigate?
See Book: 1994 Hacked Mind, Page 118-Letter
to U.S Congressman, Charles A. Gonzales in
regards to meeting with the FBI.
Why did the lower courts neglect to hear or try
this case? All these questions and evidence
presented to this court is questions of
evidence: Beyond a reasonable doubt and
preponderance of evidence that I was hoping
to depose from the Respondents.
How do you ignore federal crimes of espionage
or illegal eavesdropping as a federal judge?
How do you allow me to carry on with my life
after my life has been illegal exposed by the
USN spying device?
How do neglect to hear evidence that I along
with other Americans are being implanted,
stalked and tortured by the United States
Federal government and its agencies?
How do you neglect to hear the evidence of
luring or coercing one of my family member(s)
into a contract with bribery, knowing my
family member(s) are innocent and lawless
and it’s against the law?

Do you continue to allow the violation of my Fourth
Amendment rights to continue?
10. Do you continue to allow the treason and
torturing on me and other American citizens?

25

11. Do you hear the first case to begin the
establishment of new laws and a new era of
satellite weapons and electronic harassment?
12. Was it because they didn’t want to “Discover”
the illegal contracts and illegal limo rides
behind the Petitioners back when he was over
the age of eighteen to sign his own contract or
make his own decisions?
13. Why did the United States Navy spy on me
during the gulf war and why wasn’t the spying
stop when my military career ended?
14. When will my freedom be restored?
15. When will I be release from this mental
incarceration and torture?
16. What is it going to take to stop illegal
experiments and torture on me and other
Americans by the United States Federal
Government? 222324
CLOSING STATEMENT
I am doing my job as a United States Veteran
to report and complaint about any terroristic threats
or wrongful acts done by any federal agency just as
The Whistleblower Act of 1989 was intended for me
to do. I don’t think its ok for the Respondents to
retaliate against me and with satellite weapons and
electronic harassment to stop this complaint. I am
22 The Church Committee (formerly the United States Select
Committee to study Governmental Operations with respect to
intelligence activities) was a U.S Senate select committee in
1975 that investigated abuses by CIA, FBI, NSA and IRS.
23 Tuskegee Study of untreated syphilis in the negro male in
1932-1972 by United States Public Health.
24 Agent Orange, mixture of herbicides that U.S. Military forces
in Vietnam from 1962-197lduring Vietnam war.

26

only asking to be compensated for illegally
exploiting, falsely imprisonment and destruction of
my life for twenty-six years (26).
CONCLUSION
My 14th Amendment has been violated. I have
been denied due process of the law. The criminal
events that took place in my case is as followed:
breach of contract fox the illegal eavesdropping
and wiretappingby the Respondents, coercion to
commit bribery by initiating an illegal contract with
my family member(s), assault and battery by the
USN dentist and staff who implanted the spying
device inside of me without legal consent, espionage
for spying on me during a time of war, invasion of
privacy by exploiting my life to enemy, society and
government, treason for using satellite weapons and
electronic harassment to sabotage and manipulate
my life, torture for inflicting pain and suffering on
me with satellite weapons and electronic
harassment, aiding and abetting a crime by the
Respondents for not stopping this on-going crime
since 1994. Why is this happening to me?
The petition for writ of certiorari should be granted.
Respectfully submitted,
IS/ George Andrew Benavides, Pro se
1308 E. Common St, Suite 205
Mail Box 408
New Braunfels, Texas 78130
(210) 322-9328

